                                 UNITED STATES DEPARTMENT OF EDUCATION
                                                       OFFICE OF INSPECTOR GENERAL



                                                                    August 23, 2007

                                                                                                       Control Number
                                                                                                       ED-OIG/A09G0012

Lawrence Warder
Acting Chief Operating Officer
Federal Student Aid
U.S. Department of Education
Union Center Plaza, Room 112G1
830 First Street, NE
Washington, D.C. 20202

Dear Mr. Warder:

This Final Audit Report, entitled Department of Education’s Oversight of the Free Application
for Federal Student Aid Verification Process, presents the results of our audit. The purpose of the
audit was to determine if the U.S. Department of Education (Department) has adequate procedures
for evaluating the effectiveness of the verification process and ensuring that schools complete
verification requirements. Our review covered the period July 1, 2005, through June 30, 2006
(award year 2005-2006).



                                                         BACKGROUND 



Students apply for Federal student aid by completing a Free Application for Federal Student Aid
(FAFSA), which is processed by the Central Processing System (CPS). The CPS uses the
application information and the statutory needs analysis formula to calculate each applicant’s
expected family contribution (EFC). If the EFC is less than the student’s cost of attendance,
a student has a financial need and may be eligible to receive financial aid under the Higher
Education Act of 1965, as amended (HEA), Title IV programs. Verification, which is required
under Subpart E of 34 Code of Federal Regulations (C.F.R.) Part 668, 1 is one of the processes
that the Department relies on to ensure that students and parents report accurate information on
the FAFSA that is used in determining a student’s eligibility for Federal student financial aid.

The CPS selects the applications for verification by the schools. For enrolled students who are
selected for verification, the schools verify the accuracy of five items: adjusted gross income,
U.S. income tax paid, household size, number of students in the household who are enrolled in

1
    C.F.R. citations in this report are from the July 1, 2005, edition.
    The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                      excellence and ensuring equal access.
Final Report
ED-OIG/A09G0012                                                                                         Page 2 of 18

college, and certain untaxed income benefits. Students must provide schools with income tax
returns and other documents to support the reported information. A school has completed
verification when it has either determined that the application items are correct or when the
student or school has submitted corrected information to the CPS. The school must document
the verification and maintain a CPS document in its files showing the student’s final EFC.

When a school disburses grant funds for a student from the Federal Pell Grant Program,
Academic Competitiveness Grant Program, or National Science and Mathematics Access to
Retain Talent Grant Program, the school is required to report the verification status of the
student’s application to the Department’s Common Origination and Disbursement (COD)
system. As described in the Federal Student Aid Handbook 2005-2006, Application and
Verification Guide, the verification status codes are—
    •	 V – School completed verification of the student’s application. This code is used for both
       applications selected by the CPS for verification and those the school chose to verify
       based on its own criteria.
    •	 S – The CPS selected the student’s application for verification, but the school did not
       verify the application information because 1) the school participates in the HEA, Title IV,
       Quality Assurance (QA) Program 2 and the student’s application did not meet the school’s
       verification criteria or 2) the school elected not to verify the student’s application because
       the school reached the 30 percent threshold for required verifications.
    •	 W – The CPS selected the student’s application for verification and the school has
       elected to make an interim Pell Grant disbursement prior to completing the verification of
       the application information. The school updates the code to a V when verification is
       completed.
    •	 Blank – Neither the CPS nor the school selected the student for verification.

Our prior audit of the Department’s oversight of the verification process was issued on
March 28, 2002. The report, titled Effectiveness of the Department’s Student Financial Aid
Application Verification Process (Control Number ED-OIG/A06-A0020), concluded that the
Department generally had adequate controls over the development of the criteria used by the
CPS to select applications for verification, but was not using data collected on the results of
schools’ verification to monitor the effectiveness of the verification process 3 or the extent to
which schools complied with verification requirements. The report also concluded that the
management information system (MIS) reports generated from the CPS and verification results
reported by schools were not reliable. The review covered award year 1999-2000.



2
  Schools participating in the QA Program use their own criteria for selecting applications for verification that are
tailored to their student population. QA schools are exempt from the requirement to verify 30 percent of student
applications.
3
 At the time of the prior review, schools reported the results of verification to the Department’s Recipient and
Financial Management System (RFMS), which was replaced by the COD system. The RFMS required schools to
use verification status codes that denoted the results of the verification process (i.e., data was accurate; incorrect
data, but within tolerance limits; incorrect data that required recalculation of the EFC; etc.). The simplified coding
used in the COD system does not provide information on the effectiveness of the verification process.
Final Report
ED-OIG/A09G0012                                                                                   Page 3 of 18



                                           AUDIT RESULTS 



The Department has adequate procedures for evaluating the effectiveness of the verification
process. A subcontractor under the Department’s CPS contract performs an annual reassessment
of the criteria used to select applications for verification, and the Department generates
MIS reports from the CPS to evaluate the verification process. From our limited review, the
MIS reports appeared reliable for that use. The Department also provides schools with tools to
improve the effectiveness of their own procedures.

The Department has various procedures in place to ensure schools perform the required
verification of FAFSA information.

      •	 The Department has procedures for ensuring that schools have the knowledge and tools
         to perform verification. The Department provides information about verification
         requirements and procedures to schools on the Information for Financial Aid
         Professionals (IFAP) website, provides updated Verification Worksheets each year, and
         makes MIS reports available for schools to monitor completion of verification.

      •	 The Department has procedures for confirming that schools completed the verification
         requirements. The COD system notifies schools when required verification has not been
         completed for the students that the school reported as having received Pell disbursements
         prior to the completion of verification. The Department also relies on program reviews
         conducted by Federal Student Aid (FSA) staff at schools participating in HEA, Title IV
         programs and had expanded coverage of verification in the Program Review Guide used
         by FSA to perform the on-site reviews. The required annual audits conducted by
         independent public accountants (IPAs) may also include coverage of verification.

However, these procedures could be improved and only provide a limited level of assurance that
schools perform the required verification. As we previously disclosed in a September 2004 OIG
audit report, 4 FSA performs few program reviews each year and some are focused reviews that
may not cover schools' compliance with verification requirements. We also disclosed in the
September 2004 report that FSA staff do not consistently follow the Program Review Guide and
adequately document their work. In a March 18, 2004 memorandum, 5 we advised the
Department of the limited reliance that can be placed on the IPA audits. The IPAs typically
review few student records to test compliance with verification requirements and, in some cases,
perform no such tests of student records. Also, government and non-profit entities that expend
less than $500,000 in Federal funds are not required to have annual audits.




4
  OIG report titled Case Management & Oversight’s Monitoring of Postsecondary Institutions (ED-OIG/A04-D0014),
issued September 2004.
5
    OIG Interim Audit Memorandum, Student Financial Assistance No. 04-02, dated March 18, 2004.
Final Report
ED-OIG/A09G0012                                                                      Page 4 of 18

The September 2004 audit report provided the Department with recommendations to address
noted weaknesses in the FSA program review procedures. During this audit, we identified three
additional areas in which the Department could further enhance its procedures for ensuring that
schools perform the required verification of FAFSA information. The three areas are presented
in the below finding.

We have also provided a comprehensive summary of the Department’s procedures for evaluating
the effectiveness of the verification process and for ensuring that schools complete verification
requirements as Attachment 1 to this report.

We received your comments concurring with the finding and recommendations. The comments
are summarized at the end of the finding and the full text of the comments is included as
Attachment 2 to this report.


FINDING – D
          	 epartment Could Further Enhance Procedures for
          Ensuring Schools Complete Verification Requirements

The Department could enhance its procedures for ensuring schools complete verification
requirements by developing MIS reports to identify schools in need of technical assistance or
monitoring, requiring schools to report verification status for exempt students in a consistent
manner, and revising the COD Technical Reference to clarify its explanation of “optional” fields.

Development of MIS Reports to Identify Schools in
Need of Technical Assistance or Monitoring

In our prior audit of the Department’s oversight of the verification process, we recommended
that the Department conduct an analysis of the verification data schools reported and, based on
the results of that analysis, perform reviews or provide technical assistance to schools that
reported questionable verification results or that are not performing the required number of
verifications. In response to the recommendation, FSA completed an analysis of changes in
FAFSA information reported to CPS, reported verification status, and other information to
identify schools for program reviews. The 38 schools reviewed by FSA were selected, in part,
due to questionable CPS or verification data. For the 16 of these schools that were selected, in
part, due to reported verification data, FSA found that 8 of the 16 schools (50 percent) had major
verification findings. The Department did not use the results of its analysis to develop MIS
reports for identifying schools for future review or technical assistance.

As noted in our March 2002 report and demonstrated by FSA’s findings from its program
reviews, MIS reports generated from Department databases can be useful in identifying schools
in need of technical assistance or monitoring. From our current audit’s analyses of information
in the Department’s databases for the 2005-2006 award year and from our reviews at schools
Final Report
ED-OIG/A09G0012                                                                                        Page 5 of 18

selected from those analyses, 6 we identified three risk factors to detect schools that were not
properly reporting verification statuses to the COD system: 1) a high percentage of a school’s
students with a status code of S for applications that were selected by the CPS for verification;
2) a high number of a school’s students with a status code of S for applications that were not
selected by the CPS for verification; and 3) a high number of a school’s students with a blank
status for applications that were selected by the CPS for verification.

High Percentage of Students With a Status Code of S. From information in Departmental
databases, we computed, for each school, the percentage of students with applications selected
by the CPS for verification that had a verification status code of S. Our reviews at two schools
with high percentages found that the schools accurately completed the verification of the student
applications, but that the schools had not properly reported the student’s verification status to the
COD system. At one school, the school’s computer software automatically defaulted the status
to S for students selected by the CPS for verification and school staff did not change the code to
V prior to transmitting information to the COD system. 7 The other school’s software improperly
entered a verification status of S in the information transmitted to the Department when the
school sent a correction on the student application to the CPS. When the school subsequently
transmitted the verification status using an outdated status code, the status did not update from an
S to a V in the COD system. 8

High Number of Students With a Status Code of S Whose Applications Were Not Selected for
Verification. From information in Departmental databases, we computed, for each school, the
number of students with a verification status code of S whose applications had not been selected
by the CPS for verification. Our review at one school with a high number of such students found
that the S status codes had been improperly recorded. The school, which used the Department’s
EDExpress software to transmit information to the COD system, was unable to identify how its
use of the software resulted in the improper reporting. The school advised us that it now uses the
COD system website rather than EDExpress to transmit information to the Department. 9

High Number of Students With a Blank Status Code. From information in Departmental
databases, we computed for each school the number of students with applications selected by the
CPS for verification that had a blank verification status code. Our reviews at two schools that
had a high number of such students found that the schools had not properly reported the
completed verification. One school did not include the verification status code in its submissions
to the COD system because the COD Technical Reference, dated August 2005, identified the

6
 We conducted audits at nine schools. We reported findings in the individual audit reports for six of these schools.
Five of the six schools with findings are identified in the footnotes in this section of the report. At the remaining
school, we concluded that the school generally completed the required verification of applications selected by CPS,
but the school had not complied with the requirement to have written policies and procedures for the verification
process. The Objective, Scope, and Methodology section of this report provides a list of the nine schools reviewed
and the associated risk factor that was the basis for selecting the school.
7
 Final report titled ATI Technical Training Center’s Verification of Applicant Information Submitted on the Free
Application for Federal Student Aid (Control Number ED-OIG/A09G0029), dated March 26, 2007.
8
 Final report titled School of the Art Institute of Chicago’s Verification of Applicant Information Submitted on the
Free Application for Federal Student Aid (Control Number ED-OIG/A09G0027), dated March 26, 2007.
9
 Final report titled Morton College’s Verification of Applicant Information Submitted on the Free Application for
Federal Student Aid (Control Number ED-OIG/A09G0026), dated March 26, 2007.
Final Report
ED-OIG/A09G0012                                                                                        Page 6 of 18

verification status code as an optional data field. 10 At the other school, staff omitted a final step
in the school’s procedures that would have updated the students’ verification status from blank to
V. 11

The school reviews conducted as part of this audit confirmed that the above three risk factors
were reliable indicators for identifying schools in need of technical assistance or monitoring. In
fact, we identified findings at each school that was selected using these risk factors. 12 Our
analyses of Department information for award year 2005-2006 identified additional schools that
met these risk factors. We provided the Chief Compliance Officer, Program Compliance, FSA
with a list of the identified schools in a memorandum, dated May 2, 2007. Program reviews,
technical assistance, or other actions are needed to ensure that the listed schools, and schools
meeting these risk factors in subsequent award years, are completing verification and accurately
reporting verification results to the Department.

Consistent Status Reporting for Students
Who Are Exempt From Verification Requirements

Consistent use of a verification status code for students who are exempt from verification
requirements would improve the accuracy of the Department’s databases and MIS reports on
student verification statuses that are generated from the databases. In general, unless the school
has reason to believe that the information provided is incorrect, schools are not required to
complete verification requirements for incarcerated students, recent immigrants, Pacific Island
residents, deceased students, dependent students whose parents are unavailable, students whose
applications were verified by another school, or students who are not Title IV aid recipients (34
C.F.R. § 668.54(b)). In an electronic announcement, posted March 9, 2006, on the IFAP
website, the Department advised schools to report an S or a blank when the “school has not
completed verification because it was not required to do so in accordance with exclusions from
verification provided for in 34 CFR 668.54(b).”

The Department’s Federal Student Aid Handbook 2005-2006, Application and Verification
Guide instructs schools to report a verification status of S when the CPS selected the student’s
application for verification, but the school did not verify the application information because the
school reached the 30 percent threshold for required verifications or, in the case of a QA school,
the student’s application did not meet the school’s verification criteria. However, the Guide does
not include an exemption from the verification requirements as one of the acceptable reasons for
not performing verification in the definition of the S code. The Guide instructs schools to report
a blank when neither the CPS nor the school selected the student for verification. To provide for
consistent reporting and for consistency with the Guide definitions, schools should report a
verification status of S for students whose application was selected by CPS for verification, but
the verification was not completed because the student was exempt from the requirement.


10
 Final report titled East Carolina University’s Verification of Applicant Information Submitted on the Free
Application for Federal Student Aid (Control Number ED-OIG/A09G0033), dated March 26, 2007.
11
  Final report titled Cerritos Community College’s Verification of Applicant Information Submitted on the Free
Application for Federal Student Aid (Control Number ED-OIG/A09G0023), dated March 26, 2007.
12
   Five of the nine schools we audited were selected using one of the three risk factors. The audits at each of these
five schools identified one or more findings related to verification.
Final Report
ED-OIG/A09G0012                                                                      Page 7 of 18

Clarification of “Optional” Fields
Needed In COD Technical Reference

The COD Technical Reference is an operational guide that informs schools how to transmit data
to the COD system and provides the record layout and data elements required to successfully
process submitted records (referred to as the Common Record). The Common Record layout
table in the COD Technical Reference lists the element requirements for various business
processes covering Pell Grants and other Title IV program activities. The table shows the
verification status code as an optional element for Pell Grants. The COD Technical Reference,
Volume II, Section 3 - Common Record Layout states that “[a] field is considered [o]ptional
when it is not required in all business processes; however it may be required in some business
processes.” The section titled “Reporting Verification Status Code” states “[v]alid values for the
Verification Status Code tag are: ‘W’, ‘S’, or ‘V’ or the Verification Status Code tag may be
omitted from the Common Record.” As noted in an earlier section of this report, one school
mistakenly did not report the verification status for its students because the COD Technical
Reference indicated that the verification status code was “optional.”

The explanation of “optional” fields in the COD Technical Reference needs to be clarified to
ensure that schools include the verifications status code and other required information in their
reported data. Department staff advised us that the “optional” designation means that the school
does not need to enter data in the field for the transaction to be successfully processed by the
COD system. For example, the COD system will process a transaction when the school leaves
the verification status code “blank” because the student’s application was not selected by either
CPS or the school for verification. Department staff further stated that they did not intend for
schools to interpret the cited sections in the COD Technical Reference to mean that the
verification status code field was not a required field in the Common Record. The wording in
the COD Technical Reference needs to be revised to clearly communicate required fields in the
Common Record versus fields that do not require an entry for successful processing by the COD
system.

Recommendations

We recommend that the Acting Chief Operating Officer for FSA—

1.1	   Conduct program reviews, provide technical assistance, or take other actions to ensure
       that the schools we identified in our May 2, 2007 memorandum have completed
       verification and have accurately reported the results to the Department.

1.2	   Using risk factors similar to those we described in the finding, develop MIS reports to
       periodically identify and monitor schools that may not have completed or accurately
       reported the results of their verification of FAFSAs to the Department, and provide
       technical assistance to those schools, conduct a program review, or take other appropriate
       action.

1.3	   Require schools to report an S status to the COD system for a student whose application
       was selected by CPS for verification, but the verification was not completed because the
       student was exempt under 34 C.F.R. § 668.54(b).
Final Report
ED-OIG/A09G0012                                                                           Page 8 of 18

1.4	      Clarify the explanation of “optional” fields in the COD Technical Reference and review
          the COD Technical Reference and make any other needed revisions to ensure the guide
          clearly communicates required fields in the Common Record versus fields that do not
          require an entry for successful processing by the COD system.

FSA’s Comments

FSA concurred with the finding and recommendations and provided a corrective action plan to
address each recommendation:

       •	 Recommendation 1.1. FSA plans to generate reports from the COD system to analyze
          data used to conduct the audit. Based on FSA’s analysis of the COD reports and the
          OIG’s data analysis, FSA plans to take the appropriate action warranted for the schools
          identified in the audit, such as contacting the school, providing technical assistance, and
          conducting off-site or on-site program reviews.

       •	 Recommendation 1.2. FSA stated that its new Integrated Partner Management System
          (IPM) is currently in development and includes in its module a verification risk indicator.
          FSA added that the IPM will use risk factors which are similar to those described in the
          finding. Until IPM is implemented, FSA plans to develop MIS reports to identify and
          monitor schools that may not have completed verification or accurately reported the
          results of the verification process.

       •	 Recommendation 1.3. FSA plans to clarify the exemption requirements under 34 C.F.R.
          § 668.54(b). FSA stated that guidance to schools will reflect the requirement that schools
          must report an S status in COD for students whose application was selected for
          verification by the CPS but not verified because of the student’s exemption.

       •	 Recommendation 1.4. FSA plans to review and edit the COD Technical Reference Guide
          to clarify the definition of “optional” reporting of the Verification Status Code. FSA
          stated that the Implementation Guide of the Technical Reference will clearly state that the
          reporting of a verification status is required.




                      OBJECTIVE, SCOPE, AND METHODOLOGY 



Our audit objective was to determine if the Department had adequate procedures for evaluating
the effectiveness of the verification process and ensuring that schools completed verification
requirements for award year 2005-2006. This was a follow up to our audit titled Effectiveness of
the Department’s Student Financial Aid Application Verification Process (Control Number
ED-OIG/A06-A0020), issued March 28, 2002. Since the prior audit concluded that the
Department generally had adequate controls for developing targeted selection criteria, we did not
include that area in our evaluation of Department procedures.
Final Report
ED-OIG/A09G0012                                                                                      Page 9 of 18

To accomplish our objective, we gained an understanding of—
   •	 Laws and regulations covering the verification requirements.
   •	 Guidance contained in the Department’s Federal Student Aid Handbook 2005-2006,
        Application and Verification Guide.
   •	 Department policies, procedures and processes related to verification.
   •	 Aspects of the CPS and COD system that related to identifying applications selected for
       verification and reporting of student verification status.
   •	 Studies that provided information on the effectiveness of the verification process.

We also performed the following activities:
  •	 Interviewed Department officials and contractor and subcontractor staff for the CPS.
  •	 Identified and reviewed MIS reports to assess whether the reports provided information
      for evaluating the effectiveness of the verification process and reporting of verification
      status.
  •	 Reviewed the Department’s records on focused program reviews that it conducted at
      targeted schools.
  •	 Reviewed segments of FSA’s program review procedures covering verification.
  •	 Reviewed segments of the Office of Management and Budget (OMB) Circular A-133,
      March 2006 Compliance Supplement.

To evaluate the adequacy of the Department’s procedures, we performed reviews of verification
procedures at nine schools that were selected based on a risk analysis of information contained in
Department databases. At each school, we obtained background information, interviewed school
officials, reviewed schools’ written policies and procedures, and reviewed student financial aid
files for selected students.

  Table: Schools Reviewed by the Office of the Inspector General (OIG) and Related Risk Factor
     ED-OIG/
                                            School                           Risk Factor
  Control Number
    A09G0023        Cerritos Community College                                     3
    A09G0026        Morton College                                                 2
    A09G0027        School of the Art Institute of Chicago                         1
    A09G0028        Boston College                                                 5
    A09G0029        ATI Technical Training Center                                  1
    A09G0030        Technical Career Institutes                                    4
    A09G0031        The College of New Rochelle                                    4
    A09G0032        American University of Puerto Rico                             4
    A09G0033        East Carolina University                                       3
 Risk Factors:
 1 – High percentage of applications selected by the CPS for verification that had a verification status code of S.
 2 – High number of students with a verification status code of S whose applications had not been selected by the
      CPS for verification.
 3 – High number of students with applications selected by the CPS for verification that had a blank verification
      status code.
 4 – High percentage of applications selected by the CPS for verification that had no application changes submitted
      to the CPS.
 5 – High percentage of applications selected by the CPS for verification that had four or more application changes
      submitted to the CPS.
Final Report
ED-OIG/A09G0012                                                                       Page 10 of 18

We relied on information extracted from the CPS and the Department’s National Student Loan
Data System (NSLDS) to identify the schools with the risk factors. To assess the completeness
of the extracted information, we compared totals from the CPS and NSLDS. We concluded that
the extracted information was sufficiently reliable for use in selecting the schools to be reviewed.

We conducted our fieldwork at the Department in Washington, DC, in April 2006. Our exit
conference was held on May 2, 2007. We conducted fieldwork at the nine schools over the
period from July through September 2006. Our audit was performed in accordance with
generally accepted government auditing standards appropriate to the scope of the review
described above.



                            ADMINISTRATIVE MATTERS



Corrective actions proposed (resolution phase) and implemented (closure phase) by your office
will be monitored and tracked through the Department’s Audit Accountability and Resolution
Tracking System (AARTS). ED policy requires that you develop a final CAP for our review in
the automated system within 30 days of the issuance of this report. The CAP should set forth the
specific action items, and targeted completion dates, necessary to implement final corrective
actions of the finding and recommendations contained in this final audit report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the audits that remain unresolved after
six months from the date of issuance.

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you have any questions, please
call Gloria Pilotti at (916) 930-2399.

                                              Sincerely,

                                              /s/ for Richard T. Rasa
                                              George A. Rippey
                                              Acting Assistant Inspector General for Audit

Attachments
Final Report
ED-OIG/A09G0012                                                                      Page 11 of 18

                                                                            ATTACHMENT 1

       Summary of Department’s Procedures for Evaluating Effectiveness and 

             Ensuring Compliance with Verification Requirements 


The Department’s procedures for evaluating the effectiveness of the verification process and for
ensuring that schools complete verification requirements are summarized in this attachment.

Procedures Used by the Department
for Evaluating Effectiveness
of the Verification Process

CPS Subcontractor Performs Annual Reassessment of Selection Criteria. In the 2003-2004
award year, CPS began selecting applications for verification using criteria designed to identify
questionable information provided by applicants that could lead to over-awards of Federal
student financial aid. Each criterion is given a value. The values for the criteria met by an
application are summed to derive an overall score for the applicant. CPS selects applications for
verification that meet or exceed a specified applicant cutoff score.

Annually, a CPS subcontractor performs an analysis to assess the effectiveness of the past year’s
criteria. The subcontractor selects and reviews applications that contain changes made after the
student submitted the original FAFSA information. After receipt of subcontractor’s analysis and
recommended changes to the criteria, the Department authorizes changes in the CPS selection
criteria for the next award year.

MIS Reports Generated from the CPS Are Used to Evaluate the Verification Process. The CPS
generates two standard MIS reports that provide information to evaluate the effectiveness of the
verification process:

   •	 Report COM 5, “EFC Changes by Range – YTD Verification,” provides statistics on the
      effect that corrections to the FAFSA had on the EFC for applications selected for
      verification. Department staff advised us that the CPS subcontractor uses this report
      during the annual analysis of the selection criteria.
   •	 Report COM 6, “Applicant Verification Selection Report,” is used by the CPS
      subcontractor to assess whether the overall score for criteria used in the CPS will result in
      30 percent of applications being selected for verification as required by 34 C.F.R.
      § 668.54(a)(2)(i).

Procedures Used by Schools
for Evaluating Effectiveness
of Their Verification Process

Verification Tracking Flag Made Available to Schools. To enhance the effectiveness of the
verification process at the school level, the Department added the overall score for criteria
(“Verification Tracking Flag”) to the institutional student information record (ISIR) provided to
schools. In the Federal Student Aid Handbook 2005-2006, Application and Verification Guide,
the Department advised schools that the Verification Tracking Flag could help them choose,
Final Report
ED-OIG/A09G0012                                                                                         Page 12 of 18

among applicants selected for verification, those who have potentially made the most significant
errors on their FAFSA. 13

Verification Tool and ISIR Analysis Tool Are Available to Schools. The Department also
developed the Verification Tool and ISIR Analysis Tool to enhance the effectiveness of
verification at the school level.

       •	 The Verification Tool can be used by schools to compare information on an individual
          student’s ISIR with information on the Verification Worksheet completed by the student.
          The tool identifies the differences between ISIR and Worksheet, identifies corrections
          needed, and can electronically transmit changes to the CPS. The CPS will then send an
          updated ISIR to the school reflecting the changes.
       •	 The ISIR Analysis Tool can be used by schools to analyze batches of student applications
          to identify changes that most commonly impact students’ EFC and Pell Grant eligibility.
          QA schools are required to use the ISIR Analysis Tool, and FSA makes this tool
          available to all schools. 14 By identifying ISIR data fields and the types of students most
          likely to experience a change in EFC, QA schools obtain information that can help them
          fine tune their verification selection criteria. Non-QA schools can also benefit from the
          tool by being aware of the type of errors that may result in over-awards.

Procedures for Ensuring That
Schools Have the Knowledge and
Tools to Perform Verification

Schools Have Access to the IFAP Website. The Department provides a comprehensive website
to help schools administer Title IV programs. The IFAP website provides links to laws,
regulations, training and other guidance that include segments on the verification process. The
website also provides a link to SFA Assessments, a tool to assist schools in performing self-
assessments including reviewing their verification procedures.

Updated Verification Worksheets Are Available Each Year. The Department makes verification
worksheets available to schools for use in performing verification requirements. When a student
completes and signs the worksheet and attaches the appropriate tax forms or alternative
documentation, the school will usually have the needed information to complete the verification.
Separate worksheets are provided for dependent and independent students. The Department
reissues the worksheets each year to reflect current requirements.




13
  Schools may not be using the Verification Tracking Flag to select applications for verification. A CPS
subcontractor found that the schools in a study it conducted verified all applications selected for verification for
students enrolled at their schools. Our reviews at nine schools had similar findings. Seven of the nine schools we
reviewed verified all applications selected by the CPS for verification for students enrolled at their schools and one
school verified all applications for enrolled students. The remaining school had a written policy stating the school
would verify 30 percent of applications received, but school officials stated that the school verified most, if not all,
applications selected by the CPS.
14
     None of the nine schools we reviewed used the ISIR Analysis Tool.
Final Report
ED-OIG/A09G0012                                                                                       Page 13 of 18

MIS Reports Are Available for Schools to Monitor Their Completion of Verification. Three
MIS reports generated by the COD system are available for schools to monitor their completion
of verification requirements.

     •	 The Verification Status Report is automatically sent to schools on a monthly basis to
        bring to their attention those individual students that have received a Pell Grant
        disbursement, but the school has not reported that verification was completed. The report
        lists students with a verification status code of blank or W whose applications were
        selected by the CPS for verification.
     •	 The Reconciliation Report, which schools may request on an as-needed basis, provides
        individual student information that schools can use to confirm that student information
        recorded in their school records has been accurately recorded in the COD system. One of
        the items in the report is the student’s verification status.

     •	 The Year-To-Date Record Report can be requested for one or all Pell Grant recipients at
        the school and contains detailed award and disbursement data at the transaction level in
        the COD system. Like the Reconciliation report, it can be used to reconcile the school’s
        records with data in the COD system.

Procedures for Ensuring That
Schools Have Properly Completed
Verification Requirements

COD System Process for Notifying Schools When Required Verification Is Not Completed for
Students Who Received Disbursements. Periodically, the Department has the COD system send
schools a list of students with a status code of W and a warning that the school must take action
to complete verification (if not already completed) and update the student’s verification status in
the COD system. 15 If the school does not update the verification status by a specified date, the
COD system reduces the student’s disbursement amount to zero. The school cannot make any
subsequent disbursement for the student until the verification status is updated. On
April 6, 2006, the Department used the W Deobligation Process to reduce Pell Grant
disbursements at 387 schools for a total of 2,153 students and about $2.9 million.

Program Review Guide Contains Expanded Coverage of Verification. Department staff perform
program reviews at schools participating in HEA, Title IV programs. Reviewers may perform a
full program review or a focused review on specific areas, such as verification. 16

FSA’s Program Review Procedures, issued September 8, 2006, contain a section on verification,
which instructs reviewers to evaluate school policies and procedures. Also, as part of the

15
  As noted in the Background section of this report, W is an interim verification status. Schools report a
verification status of W when the school has elected to make a Pell Grant disbursement prior to completing
verification. The school updates the code to a V when verification is completed or an S if the student fails to
complete verification.
16
  FSA performs only a limited number of program reviews each year. Over 6,000 schools participated in the Title
IV programs in 2005-2006. During that year, FSA performed program reviews at 130 schools. Also, as mentioned
in the AUDIT RESULTS section of the report, the OIG has identified weaknesses in the program review procedures.
Final Report
ED-OIG/A09G0012                                                                               Page 14 of 18

program review, the reviewer is instructed to review school records for a sample of students.
The reviewer needs to ensure that the sample includes at least two students that were selected by
CPS for verification. The program review procedures provide criteria under which the reviewer
is required to expand the sample when errors are identified.

Annual Audits Provide Coverage of Verification. Institutions participating in Title IV programs
have annual audits performed by an IPA. OMB Circular A-133 requires public and nonprofit
entities expending more than $500,000 in Federal funds to have annual audits. Appendix B of
the Circular contains the Compliance Supplement, which provides guidance for conducting the
audits. The Compliance Supplement instructs the IPA to review the institution’s policies and
procedures for verifying applications and to review a sample of applications that were selected
for verification to ascertain that the school appropriately completed the verification. 17

Schools that are not covered under OMB Circular A-133 are required to have audits performed
by IPAs in accordance with our Audit Guide, titled Audits of Federal Student Financial
Assistance Programs at Participating Institutions and Institution Servicers. The guide instructs
IPAs to review a school’s procedures for determining student eligibility and review a random
sample of student files to confirm the student met eligibility requirements, including that the
student has provided all necessary documentation to complete verification, if applicable (i.e., the
student’s application was selected by CPS for verification). We plan to expand coverage of
verification in an upcoming revision to the guide.




17
  As mentioned in the AUDIT RESULTS section of the report, the OIG has advised the Department that the
reliance that can be placed on audits conducted by IPAs is limited.
Final Report
ED-OIG/A09G0012                                            Page 15 of 18


                                                       ATTACHMENT 2





                  FSA’s Comments to the Draft Report
                                     CHIEF OPERATING OHICER

                                                                          AUG   1 2007
TO:            George A. Rippey
               Acting Assistant Inspector General for Audit
               Office of Inspector General (OIG)

FROM:          Lawrence A. Warder   lsi
               Acting Chief Operating Officer
               Federal Student Aid

SUBJECT: 	     Response to Draft Audit Report - Department ofEducation's Oversight ofthe
               Free Application for Federal Student Aid Verification Process
               Control Number ED-OIGI A09GOO 12

Thank you for the opportunity to respond to the draft audit report, Control Number ED­
OIGIA09G0012, entitled Department ofEducation's Oversight ofthe Free Application for
Federal Student Aid Verification Process, The purpose of the audit was to determine if the U.S.
Department of Education (Department) has adequate procedures for evaluating the effectiveness
of the verification process and ensuring that schools complete verification requirements. The
audit covered the period of July 1, 2005 through June 30, 2006 (award year 2005-2006).

Federal Student Aid concurs with the overall scope and findings as presented in the report. The
OIG has acknowledged all of the positive tools Federal Student Aid has provided for schools to
ensure compliance. Federal Student Aid views the results of the OIG audit as an opportunity to
further enhance tools and guidance for schools in completing the verification process, and to
strengthen the effectiveness of our procedures for monitoring schools' compliance with
verification requirements. Our response to the ~IG's audit follows with the noted exceptions:

FINDING 1 - Department Could Further Enhance Procedures for Ensuring Schools
Complete Verification Requirements

OIG Recommendations, Finding 1

1.1 	   We recommend that the Acting Chief Operating Officer for Federal Student Aid conduct
        program reviews, provide technical assistance, or take other actions to ensure that the
        schools we identified in our May 2, 2007 memorandum have completed verification and
        have accurately reported the results to the Department.




                               830 First St. N.E., Wa$hington, DC 20202
                                  www.FederaIStudentAid.ed.gov
                                           J-800-4-FED-AID

        FEDERAL STUDENT AID;';'::iI({lll'START HERE. GO FURTHER.
Federal Student Aid Response - We agree with the recommendation. Federal Student Aid will
generate reports from the Common Origination and Disbursement system (COD) to analyze data
used to conduct the audit. Based on an analysis of the COD reports in conjunction with the
OIG's data analysis, the appropriate action will be taken as warranted for the schools identified
in the audit. This action could range from telephone calls, emails, technical assistance, off-site
program reviews to on-site program reviews, depending on the results of the analysis.

1.2 	   We recommend that the Acting Chief Operating Officer for Federal Student Aid using
        risk factors similar to those we described in the finding, develop MIS reports to
        periodically identifY and monitor schools that may not have completed or accurately
        reported the results oftheir verification ofFAFSAs to the Department, and provide
        technical assistance to those schools, conduct a program review, or take other
        appropriate action.

Federal Student Aid Response - We agree with the recommendation. Federal Student Aid's
new Integrated Partner Management System (IPM) is currently in development and includes in
its module for partner risk management a verification risk indicator. rPM will be using risk
factors which are simi lar to those described in the finding, that is, schools with a high percentage
or high number of S, W, or blank verification status codes for the Pen Grant recipients selected
by the CPS for verification.

Until !PM is implemented, Federal Student Aid will develop MIS reports to identify and monitor
schools that may not have completed verification or accurately reported the results of the
verification process.

1.3 	   We recommend that the Acting Chief Operating Officer for Federal Student Aid require
        schools to report an S status to the COD system for a student whose application was
        selected by CPSfor verification, but the verification was not completed because the
        student was exempt under 34 C.F.R. § 668.54(b).

Federal Student Aid Response - We agree with the recommendation. Federal Student Aid will
clarify the exemption requirements under 34 C.F .R. § 668 .54(b). Guidance to schools will
reflect the requirement that schools must report an S status in COD for students whose
application was selected for verification by the CPS but not verified because of the student's
exemption.

1.4 	   We recommend that the Acting Chief Operating Officer for Federal Student Aid clarifY
        the explanation of "optional"fields in the COD Technical Reference and review the
        COD Technical Reference and make allY other needed revisions to ensure the guide
        clearly communicates required fields ill the Common Record versus fields that do not
        require an entry for successful processing by the COD system.




                                                 2

Federal Student Aid Response - We agree with the recommendation. Federal Student Aid will
review and edit the COD Technical Reference Guide to clarify what is meant by "optional"
reporting of the Verification Status Code in the submission of the Common Record. The
Implementation Guide of the Technical Reference will clearly state that the reporting of a
verification status code is required.

Tfyou have any questions you may contact Kathleen Wicks at 202-377-3110 or Karen Chauvin
at 202-377-4274.




                                           3

